3n tf)t

Hfnbtana Supreme Court
Rodolfo A. Lopez, Jr.,
Appellant(s),

Court of Appeals Case No.
19A-CR-00098
Trial Court Case No.
46C01-1802-F6-149

v.
State Of Indiana,
Appellee(s).

Order
This matter has come before the Indiana Supreme Court on a petition to transfer
jurisdiction, filed pursuant to Indiana Appellate Rules 56(B) and 57, Mowing the issuance of a
decision by the Court of Appeals. The Court has reviewed the decision of the Court of Appeals,
and the submitted record on appeal, all briefs filed in the Court of Appeals, and all materials
filed in connection with the request to transfer jurisdiction have been made available to the
Court for review. Each participating member has had the opportunity to voice that Justice’s
views on the case in conference with the other Justices, and each participating member of the
Court has voted on the petition.
Being duly advised, the Court DENIES the petition to transfer.
Done at Indianapolis, Indiana, on 5/i4/7n?o

All Justices concur.

Loretta H. Rush
Chief Justice of Indiana

Itype-ncU* ^

DocuSign Envelope ID: 2FD8C7E8-F483-4C70-99FC-6C939BB572F2

MEMORANDUM DECISION
Pursuant to Ind. Appellate Rule 65(D),
this Memorandum Decision shall not be
regarded as precedent or cited before any
court except for the purpose of establishing
the defense of res judicata, collateral
estoppel, or the law of the case.

FILED
Sep 20 2019, 10:05 am

CLERK

Indiana Supreme Court
k Court of Appeals a
and Tax Court J

Attorney for Appellant

Attorneys for Appellee

Jennifer L. Koethe
Navarre, Florida

Curtis T. Hill, Jr.
Attorney General of Indiana
George P. Sherman
Deputy Attorney General
Indianapolis, Indiana

IN THE

COURT OF APPEALS OF INDIANA
Rodolfo Lopez, Jr.,

September 20, 2019

Appellant-Defendant,

Court of Appeals Case No.
19A-CR-98

v.

State of Indiana,
Appellee-Plaintiff

Appeal from the LaPorte Circuit
Court
The Honorable Thomas J.
Alevizos, Judge
Trial Court Cause No.
46C01-1802-F6-149

Baker, Judge.

Court of Appeals of Indiana | Memorandum Decision 19A-CR-98 | September 20, 2019

Arrrwbix a

Page 1 of 3

DocuSign Envelope ID: 2FD8C7E8-F483-4C70-99FC-6C939BB572F2

[l]

On February 15, 2018, the State charged Rodolfo Lopez, Jr., in LaPorte
County with four Level 6 felonies, later amending the charging information by
changing the felonies to Level 5 offenses. On May 24, 2018, Lopez, who was
being held in the St. Joseph County Jail on other charges, filed a request to
proceed pro se and a motion for a speedy trial in LaPorte County. A warrant
for Lopez’s arrest for the LaPorte County charges was served on July 3, 2018.

[2]

At Lopez’s initial hearing in LaPorte County on July 6, 2018, he waived his
right to counsel and requested a bench trial, which the trial court scheduled for
August 16, 2018. Lopez did not object to the date, nor did he move for
discharge at any point prior to trial. Following the August 16, 2018, bench
trial, the trial court found Lopez guilty as charged, later sentencing him to
concurrent sentences of three years each on all counts. Lopez now appeals.

[3]

Criminal Rule 4(B) provides that “ [i]f any defendant held in jail on an
indictment or an affidavit shall move for an early trial, he shall be discharged if
not brought to trial within seventy (70) calendar days from the date of such
motion . ...” A defendant must maintain a position reasonably consistent with
his request for a speedy trial; therefore, he must object at the earliest
opportunity to a trial setting that is beyond the seventy-day time period. Hill v.
State, 777 N.E.2d 795, 797-98 (Ind. Ct. App. 2002). If an objection is not timely
made, the defendant is deemed to have acquiesced to the trial date. Hampton v.
State, 754 N.E.2d 1037, 1039 (Ind. Ct. App. 2001). Furthermore, a defendant
waives review of this issue on appeal if he does not move for discharge or
dismissal prior to trial. Id. at 1040.
Court of Appeals of Indiana | Memorandum Decision 19A-CR-98 | September 20, 2019

Page 2 of 3

DocuSign Envelope ID: 2FD8C7E8-F483AC70-99FC-6C939BB572F2

[4]

In this case, Lopez did not object to the trial date, which he claims exceeded the
seventy-day time limit set forth in Criminal Rule 4(B). Therefore, he
acquiesced to the trial date. Moreover, he did not move for discharge or
dismissal prior to trial, meaning that he has waived the issue for appeal. Lopez
argues that we should afford him leniency because he was pro se, but it is well
established that pro se litigants are held to the same standard as attorneys and
are required to follow procedural rules. E.g., Evans v. State, 809 N.E.2d 338, 344
(Ind. Ct. App. 2004). Therefore, he is not entitled to relief on this basis.

[5]

The judgment of the trial court is affirmed.

Kirsch, J., and Crone, J., concur.

Court of Appeals of Indiana | Memorandum Decision 19A-CR-98 | September 20, 2019

Page 3 of 3

STATE OF INDIANA

)

IN THE LA PORTE CIRCUIT COURT

) SS:
COUNTY OF LA PORTE

)

STATE OF INDIANA

>

2018 TERM

)

VS.

)

CAUSE NO. 46C01-1802-F6-149

)

RODOLFO A. LOPEZ, JR.

)

JUDGMENT OF CONVICTION & SENTENCING ORDER
The above-entitled cause having come on for hearing on this 24th day of
October, 2018, the State of Indiana appears by Deputy Prosecuting Attorney
Frank A. Rodriguez, for the County of LaPorte, State of Indiana; and the
Defendant, Rodolfo A. Lopez, Jr., appears in person and pro se, and this matter is
now submitted for sentencing.
The Court, having found the Defendant, Rodolfo A. Lopez, Jr., guilty at
Bench Trial, now finds:
The Court now enters a judgment of conviction against the Defendant,
Rodolfo A. Lopez, Jr., to Count I, Battery Against a Public Safety Official, a Level 5
Felony, to Count II, Battery Against a Public Safety Official, a Level 5 Felony, to
Count III, Resisting Law Enforcement, a Level 6 Felony, to Count IV, Resisting Law
Enforcement, a Level 6 Felony.
The Court, having had this matter under advisement and considered the
written Pre-Sentence Investigation Report, now finds:
The Court finds that there are minimal aggravating and mitigating factors.
The Defendant, Rodolfo A. Lopez, Jr., who is a male person, 35 years of age,
is guilty of two counts of Battery Against a Public Safety Official, Level 5 Felonies,
of two counts of Resisting Law Enforcement, Level 6 Felonies.

AFtENblX C

078

IT IS ORDERED, ADJUDGED AND DECREED by the Court that the Defendant,
Rodolfo A. Lopez, Jr., shall be committed to the custody of the Indiana
Department of Correction for a period of three (3) years under each count. Said
sentences shall be served concurrently.
THE COURT FURTHER FINDS that zero (0) days of the sentence of
imprisonment shall be suspended.
The Court finds that the Defendant shall be given one hundred seventeen
(117) days credit under Credit Class B toward the sentence of imprisonment for
time spent in confinement as a result of these charges.
A fine in the amount of $1.00 and Court costs in the amount of $185.00
shall be assessed against the Defendant and shall be of record only.
The Defendant was advised of his right to appeal said conviction and
sentence and indicates to the Court that he understands said right.
The Defendant is remanded back into the custody of the Sheriff.
SO ORDERED this 24th day of October, 2018.

THOMAS ALEVIZOS, JUDGE
LAPORTE CIRCUIT COURT

cc:

Deputy Prosecuting Attorney Frank A. Rodriguez, Esq.
Rodolfo A. Lopez, Jr., Defendant, c/o LPCJ
I DOC
Sheriff
Probation
Clerk/ck

079

CudtSute! INDIGENT

STATE OF INDIANA

)

IN THE LAPORTE CIRCUIT COURT

)ss:

COUNTY OF LAPORTE

)

STATE OF INDIANA
Plaintiff,

)

CONTINUOUS TERM, 2018

)
)

v.

)

CAUSE NO. 46C01-1802-F6-149

)

RODOLFO LOPEZ, JR
DOC #251416
Defendant/Petitioner.

)
)
)

ORDER FOR PERFECTION OF APPEAL

Petitioner/Defendant, RODOLFO LOPEZ, JR., an offender confined at Indiana
Department of Correction (IDOC), having presented to this Court an imperfect, yet timely,
Notice of Appeal, now finds as follows:
1. Petitioner submitted an imperfect attempt at filing an Appeal of his criminal conviction,
signed November 9,2018.
2. Petitioner was convicted in this Court of several charges on October 24,2018.
3. The Petitioner’s attempt at appeal is thus timely.
4. However, Petitioner’s Notice of Appeal has many fatal defects, not the least of which
include appealing to a tribunal that does not exist (“LaPorte County Court of Appeals”)
or including a Cause Number to reference firom what decision Petitioner may be seeking
appeal.
5. Regardless of the defects, and taken within the context of all current and pertinent facts,
Petitioner’s intent is clear, and thus this Court finds that Petitioner has made an effective,
if imperfect, motion to appeal judgment of his convictions.
6. Due to Petitioner’s current commitment to IDOC, this Court finds that the Petitioner is
HEREBY INDIGENT and without means to secure his own counsel.

\s~^:

-W

080

I

7. To avoid further delay regarding Petitioner’s appeal, this Court finds that referral to the
services of the LAPORTE COUNTY PUBLIC DEFENDER’S OFFICE is necessary.
IT IS THEREFORE ORDERED that this Matter is HEREBY REFERRED TO
LAPORTE COUNTY PUBLIC DEFENDER’S OFFICE for such support may be necessary to
fully and effectively represent Petitioner’s appeal.

I

SO ORDERED on this the 5th day of December, 2018.

<r

HON. THOMAS J ALEVIZOS
Judge

Distribution:
Rodolfo Lopez, Jr., #251416, IDOC 737 Moon Road, Plainfield, IN 46168
LaPorte County Public Defender’s Office
Clerk
RJO
/gor

nsi
i

Additional material
from this filing is
available in the
Clerk's Office.

